, "
                          ((




       Department of Health and Human Servces

                   OFFICE OF

              INSPECTOR GENERAL





        FDA FOOD                   SAFETY           INSPECTION




                        #' ,pvv
                                            Richard P. Kusserow
                                            INSPECTOR GENERA
                   '0




                                                OEI-OS-901070
"(


'J 

                        -.    ..


       Departent of Health and Human Servces

               OFFICE OF

          INSPECTOR GENERA





         FDA FOOD SAFET INSPECTION





                  ft.
                             Richard P. KUllerow
                             INSPECFOR GENRA

                                   AUGUS 191
              EXECUTIVE SUMMARY

PUROSE
The purpose of this inspection was to examine the authorities for and the breadth of
domestic food safety inspections of low-risk food
Drug Administration (FDA) and the States.
                                                       fis
                                                     conducted by the Food and


BACKGROUN
The FDA is responsible for assuring the safety of the nation s foods , drugs , medical
devices , radiological products and cosmetics. Under the Food , Drug and Cosmetic
Act , FDA' s primary role in food sanitation is to monitor through inspections the
conditions under which food is manufactured , processed , packed and stored.

In response to a September 1989 General Accounting Offce recommendation that
FDA reduce their inspections of low- risk food fis" FDA pointed out that problems
with low- risk firms are of serious concern to the American consumer, and represent
violations of the law. These firms , FDA stated , handle food products that are
particularly susceptible to contamiation. Large volumes of food improperly stored
bottled beverages contaminated by mold , and the use of contamiated raw bakg
ingredients represent a potential for problems , lie outbreak of food poisonig, that
justify the use of a high level of inspection coverage.

MEODOLOY
We contacted the 21 FDA district offces, and inspection agencies in all States, the
District of Columbia, and Puerto Rico. We obtained descriptions of how the
workplanning, priority settig, and enforcement processes actually work and how they


conditions.
might be improved. Respondents also gave their perceptions of whether low-risk
food safety inspections act as a deterrent to insantary food processing and storage





FIINGS
      Al    FDA      bees dut th
                         pr                    in             se prle wi low-rk
                                             in
                                                        for
                 tm                          th
                                      pote        ex


                                              Sta gi a
      pr to th low-r foo
      foo FDA             a low         to
                                    saety du do FDA.

      Not al foo fi ar lawn to FDA or th Stl Rend be th

      ar pole pu6c he rila
      not
                                     aswi             sie th ar
                                                        un        fi
                                                                                           '!
- r





              Foo safety
              efece    job.
                              into do not hae al th enforcem tols th need to do an
             De          Fed and State agen and in
                       efor by                                                  grup to prmote
             unorm, no natina reqem ex                   for th inctn            of low- rik foo
             fi. Conseq, th pu6c receies dieren leels of foo safety, depeg
             on   th geogph           loatn.
       RECOMMATIONS
       The FDA, working with the States , should develop and seek legislative authority for
       a system to inspect low- risk food firms based on the following priciples:

                    there is a need for a complete and uniform system for inspecting              low-
                    risk food firms;
                    the FDA' s role should be in oversight , developing standards , and
                    providing technical assistance to the States; and
                    the States should have the responsibilty for inspecting low- risk food
                    firms.

       At a minimum , the system should include the followig       recommendations.

                  FDA   sho de unor syst th en                                    syst
                                                                             both a
                                                     coln of inn                re.
             Th


             idatin
             Th   FDA
             cer whih Sta
                              of al


                        sho deelp         rereem.
                                      foo fi an

                                      met the
                                                      for low-rk foo saety inctns an

             Ce Sta sho cond                    in        of low-rik   foo




             Th

             nees.
                  FDA sho        se     lela    to   prvi inr.          wi th          inn tols
             Th

             wi
                  FDA sho
                  fu
                              co1l an inn
                                       in
                        low-rk foo safet
                                            fr
                                          act         user fee         al foo

                                                                 of both FDA an
                                                                                  fi            user fee
                                                                                           th State
             th me FDA'          cern
       AGENCY     COMM TO TI DRA RERT
       We received comments from the Public Health Servce (PHS), FDA' s parent agency,
       the Assistant Secretar for Plang and Evaluation (ASPE), and the Assistant
       Secretary for Management and Budget (ASMB). Al respondents concured in
       priciple with the recommendations. The PHS asked for refiement of several
       recommendations , and suggested that the States ' intial receptity to a liage
       State certifcation with the user fee be measured.
OFFCE OF INSPEcrR           GEN REPONSE TO AGENCY COMM
Responding to PHS' suggestion, the Offce of Inspector General recontacted
States to gauge States ' initial reaction to the recommendations. The States were
unanimous in supporting the need for consistency in inspections. Eight of the 10
States supported the user fee concept to fund inspection activities as outlined in our
recommendations.

We did not provide more exact details regarding the recommendations , as PHS
suggested. Our view is that PHS , in concert with States , professional organizations
and industry, should determine the exact requirements and their planned
implementation.

In response to concerns of ASPE and ASMB , the report was changed to indicate
that we had no estimate of the eventual cost of the program suggested. The amount
of the user fee in the report is shown as an example.

Technical revisions to the body of the   report were also made as suggested by PHS.
                                                                                                                       . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .............. ....... .. .. ......... ..
                                                                                                                                                                          . ...................... .... ... ... .... ... ..
                                                                                                   . ... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .. .. .. ..
                                                 . . . . . . .. .. .. .. .. .. .. ... ... ... ... ..                                                                                                                     ..
                                                                                                                                                                                                                         ..




                                                                              TABLE OF CONTENTS

                                                                                                                                                                                                               PAGE
EXECUTIV SUMMY
INTRODUCTION. . . . . . . . . . . . . . . .

    Purpose
    Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
    Methodology

FINDINGS

    Although FDA believes that the potential exists for serious problems with low-
    risk foods , FDA assigns a low priority to these inspections. States give a higher
    priority to these low- risk food safety inspections than does FDA


   Not all food firms are known to FDA or the States. Respondents believe there
   are possible public health risks associated with unidentifed fis , since they are
   not inspected. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




   Food safety inspectors do not have all the enforcement tools they need to do
   an effective job

   Despite efforts by Federal and State agencies and industry groups to promote
   uniformty, no national requiements exist for the inspection of low- risk food
   firms. Consequently, the public receives dierent levels of food safety,
   depending on their geographic location

RECOMMNDATIONS

DEPARTMNTAL COMMNTS                                                                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0 . . 





APPENDICE

   Appendi A: Agency Comments on Draft Report

                                                                 Public Health Servce . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-
                                                                 Assistant Secretary for Planng
                                                                      and Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-
                                                                 Assistant Secretary for Management
                                                                          and Budget                                                                                                                             . A-


   Appendix B: Offc                                                                 of Inspector General Response to Agency Comments                                                                             . B­
                                INTRODUCTION

PUROSE
The purpose of this inspection was to examine the authorities for and the breadth of
domestic food safety inspections of low- risk food firms conducted by the Food and Drug
Administration (FDA) and the States.

BACKGROUN
The FDA is responsible for assuring the safety of the nation s foods , drugs , medical
devices , radiological products and cosmetics. Under the Food, Drug and Cosmetic
(FD&C) Act , FDA' s primary role in food sanitation is to monitor through inspections
the conditions under which food is manufactured, processed, packed and stored. Food
firms ' compliance with the FD&C Act is secured though inspections of facilties and
products , analysis of samples , educational activities , and legal proceedings.

Food firms engaging in interstate commerce are reguated by FDA. State and local
jurisdictions have authority over food firms within their boundaries , whether or not
interstate commerce is involved.

The FDA inspects   high- riskfood  fis   that manufacture products that are highly
susceptible to microbial contamination , like mayonnaise or low-acid canned foods.
These foods , if improperly processed, can cause problems considered to be high- risk
like staphyloccal enterotoxin and histamies.

The FDA inspects low- risk food firms , which they defie     as bakeries ,   bottlers and food
warehouses. The tyes of      foods found in low- risk food   fis   vary widely. In bakeries
one would encounter raw foodstuf such as flour, sugar and eggs , as well as fished
products lie bread and pastries. Soda pop, mieral water, and         frt
or canned at bottlig   fi.                                          juices are bottled
                              Food warehouses store any raw materials or fished
foodstufs , from sacks of coffee beans to cartons of breakfast cereals.

Many FDA fidigs of insanitary conditions or practices are resolved through voluntary
compliance from the    fis   rather than interdicting the suspect foodstufs by a Federal
court warrant, a lengty   and labor-intensive   process. Whe all States have embargo
authority, orimediate seize power over domestic food products , FDA lacks this
immediate seize authority. Ths often makes it necessar for FDA to rely on States
to detain adulterated food products. However, States ' defitions of " adulterated" may
differ from FDA' s and, as a result, they may not be able to comply with every FDA
embargo request.
Many factors impact on the level and frequency of inspection coverage of low- risk food
firms. The FDA relies on its headquarters to provide national guidance through its
Compliance Program Guidance Manual and on its 21 district offces to set priorities for
low- risk food safety inspections. These district offces consider the full range of their
other FDA inspection responsibilties , such as high- risk food firms , pharmaceutical firms
and blood banks ,in determining how many low- risk food safety inspections they will
undertake. Staffing levels also affect ths planning.

The FDA' s strategy is to target violative    fis
                                              for inspection. The FDA district offices
consider food firms for inspection based on a combination of the following priorities:

              knowledge of the existence of potential problems;

              firms that produce a food product with a history of causing potential
              health problems;

              firms inspected during the past 6 years with violations serious enough to
              warrant product seizure , prosecution and/or injunction;

              firms that have never been inspected; and

              fis that have a violative history on a national level.
The FDA currently supplements its inspections by contracting with 36 States to conduct
food inspections. The FDA district offces perform audit inspections on a percentage of
the firms inspected by States under contract.

The General Accountig Offce   (GAO) issued a report in September 1989 entitled
FDA Could Improve Inpection Program to Make Better Use of Resources. " The
GAO recommended , in part, that FDA reduce its inspections of low- risk food          fis
States that routinely inspect these   fis.
In response , FDA pointed out that problems with low-risk       fisare of serious concern
to the America consumer, and represent violations of the law. These fis , FDA
stated, handle food products that are particularly susceptible to contamination. Large
volumes of food improperly stored, bottled beverages contamiated by mold , and the
use of contamiated raw bakig ingredients represent a potential for problems , lie
outbreaks of food poisoning, that justi      the use of a high level of inspection   coverage.




   Thoughw th repn, an   rem:e to "th Sta inAu both Pu Rio an th Dit of Co/ui4
 METHODOLOY
OUf inspection focused on FDA and States low- risk food safety inspection activities of
domestic bakeries , bottlers and food warehouses. We considered these activities in light
of the full range of responsibilties for these agencies.

This inspection was primarily a system review. No evidence gathered indicates an
increase in food contamination. Rather , we addressed the potential for problems and
methods to avoid them. We did not examine the methods used to inspect firms , nor
perform any qualitative review of the inspections being performed.

Through open-ended discussions with the 21 FDA district offce directors , we elicited
information concerning their workplanng processes, use of resources , enforcement
techniques , and the setting of priorities for low- risk food safety inspections. We
personally visited FDA district offces in: Bufalo, New York; Baltimore , Maryland;
Chicago, ilinois; San Francisco and Los Angeles, California; Orlando, Florida;
Nashville , Tennessee; Kansas City, Missouri; Denver, Colorado; and the Indianapolis
Indiana resident post of the Detroit, Michigan district offce. The other district
directors were intervewed by telephone.

We also contacted all States to obtain simar information from State agency directors
with responsibilty for conducting low-risk food safety inspections. On-site contacts were
made with State agency heads from New York, Rhode Island , Indiana , Florida
Tennessee , Californa , Kansas and Wyoming.

During our on-site visits at FDA district offces and the State agencies , we held
discussions with food safety inspectors 2 to obtain descriptions of how the workplanning,
priority setting, and enforcement processes actually work, how they might be improved
and their perception of low-risk food safety inspections as a deterrent to insanitary food
processing and storage conditions.

The FDA and all States, with the exception of Georgia and Ohio who did not respond
to our data request ,provided quantitative data reportg the extent of low- risk food
safety inspections being conducted by their agency. Some States and FDA were unable
to respond completely because the inormation requested was not collected by them, or
was not accessible in the detail we had requested.




     2Discuns we with
              th job ti
                             th     who peorm low- ri foo                                              dl
                                                                                                  inn. intors orinvegar! At
                                                             Slfet               At FDA,
                                                                                                       an not lid
                                                                      inti                 th     we
1M   States               vard. In eah CD#     th   intors       we     rensle   for a range of                     solely to low­
rik food safet   inctions
                                     FINDINGS

 FIING 1: Althoug FDA believes tht the potential exts for serious problems with
low-rik foo FDA asign a low priority to thes inpectons. States gie            a higher
priority to thes low-rik foo saety inpectons th doe FDA

The FDA, and their State counterparts , strongly contend that low- risk food safety
inspections encourage good sanitary practices on the part of food firms. However
FDA district offces , and a few State inspection agencies, often treat these inspections
as less important than their other responsibilties.

Most respondents believe that low- risk food safety inspections act as deterrents against
insanitary practices in the food industry, and feel that more low- risk food safety
inspections should be conducted.

Nineteen FDA district directors and 49 State inspection agency directors agree that
low- risk food safety inspections serve to prevent insanitary conditions from becoming
widespread. A commonly advanced notion is that fis become lax in food sanitation
practices if they know that there is little lielihood of being inspected. Many feel their
inspection presence compares to that of " a cop on the beat.

The problems inspectors encounter when they conduct low- risk food safety inspections
include: (1) rodent and insect defiement; (2) failure to comply with standards of
identity (these define what a given food product is , its name and the ingredients which
must be used,  or may be used, and which ones must be declared on the label); (3) use
of unapproved food and color additives; (4) product substitution; (5) short weight; and,
(6) insanitary storage and processing conditions.

Because of these problems , and the deterrent value of low-risk food safety inspections
14 of the FDA district diectors , and 30 State diectors feel they would lie   to see   more
low- risk food safety inspections performed. No FDA ditrict diector , and only one
State directorth there should be a decrease in the inspections being performed.
Resnd        inca th pu6c he safety is ennced peormg low-rik foo
                                                          by
safety

Some respondents express concern that although these    fis   are categoried as low- risk,
there are public health risks associated with the food products handled by low- risk
fis. Most    tyical was the notion   that " low- risk does not mean no risk. " Respondents
point out that the understandig of the potential hazrds associated with food and food
processing is constantly changig, and requies a constant re-evaluation of the risk
identified with a particular food. For example , unti 199, fresh tomatoes were not
known to carr any strains of salmonella contamination.
- (





       Most problems caused by ingesting adulterated low- risk food are admittedly unlike the
       more serious problems connected with high- risk foods. Contaminated high- risk foods
       we were told " can kill you; " .. but (eating an adulterated low- risk food) "just makes you
       wish you were dead.

       Low-rik   foo safety inctins ar consed a          low   prri by FDA ditrt offes.
       Overwhelmingly, FDA district offces do not feel that low- risk food safety inspections
       are a high priority. Twenty of the FDA district directors describe low-risk food safety
       inspections as being a low priority, with the other director characterizing it as of
       medium importance. Most FDA district directors feel that given current resources and
       other responsibilties , this treatment of low- risk food safety inspections is appropriate.
       Because of its large workload and limited resources , FDA must establish priorities for
       its inspections. In doing this , low- risk food safety inspections may not necessarily have
       the same importance as some other inspections.

       We do not suggest that FDA' s priorities are misplaced. Low- risk food safety
       inspections should not be placed above the vital need to inspect high- risK food firms,
       blood collection facilties , drug manufacturers , or makers of medical devices.

       The FDA district offces are given considerable latitude in determng how their
       inspection resources are expended. Ths discretion is offset by the need to respond to
       new FDA headquarters ' priorities , or to react at once to public health emergencies.
       Each FDA district offce must react to the district s imediate needs as well as to
       national crises.

       Typically, low- risk food safety inspections are postponed or cancelled when crises arise,
       or if new demands are made on the FDA district offces. Al FDA district offces
       report havig to cancel low- risk food safety inspections to react to potentially dangerous
       public health hazards , lie the 199 incident involving cocaine in the imported beverage,
       Malta "   or in 1989,when caned and pickled mushrooms from China caused several
       food poisoning   outbreaks. Secretarial intiatives , lie the curent focus on proper
       labellng of products,   will also impact on FDA distrct offce   inspections.


       In some instances, FDA may not be able to reschedule low- risk food safety inspections.
       For example ,  in 1989 FDA planned to conduct 14 145 food inspections themselves (not
       exclusively low-rik inspections). By year s end , FDA conducted only 54 percent of
       their planned food inspection work.
             ':                                                                                                                .""




. l'



       Th   FDA ha               consbly reed th nuer of low-rik foo ji incte
       The number of bottlers , bakeries , and food warehouses inspected by FDA has
       decreased by 44 percent since 1985. In 1985, FDA inspected 3 339 different bottling,
       baking, and food warehouse establishments. In 1989 , only 1, 868 such establishments
       were inspected by FDA Some firms are inspected more than once in a year in order
       to verify that a violative condition is corrected. These figures do not account for all of
       the low- risk        food safety inspections that FDA conducted , since some firms receive more
       than one inspection during a year.                                                                    These follow-up inspections are not included in
       FDA' s     inspection count.


       During this time period, a combination of factors caused FDA to devote less resources
       to low- risk food safety inspections. Two major factors were the declining number of
       inspectors each year , and those inspectors available being frequently used for other
       priorities.

       The following chart ilustrates the decline in the number of low- risk food firms
       inspected by FDA No inspections performed by States under contract are included.


                                                                                                                                                         Other FDA inspections
                               Decline in the Number of                                                                                                  of food fis , which
                           Low-Risk Firms Inspected by                                                                                     FDA           includes high- risk   firms
                                                                                    1985 1989
                                                                                                                                                         dropped 39 percent
                   3600                                                                                                                                  from 1985 to 1989. In
                             .00....'..''' ... 2.822''''''''..''                                                                                         contrast, the number of
                   3000


                   2500
                                                                                           2;58.0.''''''''....'''''''''''.'''.''''''''''
                                                                                                                                                         fis   inspected in the
                                                                                                                               975                       non-food FDA program
                             .'00'.'.."."."0000"""''''''''''.00'.'''..''''''''..00''''''.''.'' ......00...                                       8..
                   2000
                                                                                                                                                         areas has remained
                             ""'''''..'''00'.'''''''''''''.''0000'''''''''''''''.00'.''.''''''''.''..00'.''''.'''''""''''00
                   1500                                                                                                                                  fairly stable since 1985.
                     000     ..0000."""'"'''''''00'..''''.''''''..''.''.'''''''''''''''.'''..'''''''''''''''''''''........                               Inspection of firms in

                     600     ."""'''''.''''''''''''''.''.'00'''00'''''''''''00'''''''''''''''.'''''''''''''''''''..''.                                   these centers declied
                                                                                                                                                         only 6 percent during
                           188                           1888                                 1887                            1888                1888   this period.
                                                                                               ".r
                                                                                                                               . 8otten. ....,,...

                                                                                                                                      Fooll ...hoeee
                                                                                                                                                         Respondents expect that
                                                                                                                                                         199 inspection data
                                                                                                                                                         show an increase in the
       number of low- risk food                                      fis
                                       inspected by FDA, due to staff increases. This expected
       increase is not surrising since FDA district offces frequently use low-risk food safety
       inspections to train new staff in inspection procedures and documentation.
                                                   .............     "'"''
                                                   .............................................        ........ .................................
                                                   ..........................................................................................
                                                   ............................................................................................
                                                   ..............................  "'."""
                                                   ................................................................................................
                                                                                                                                           .'"''''''




Th   FDA ha alo
contct
                   reded th nuer of low-rik foo                                                     fi State inct un                                                        FDA


The FDA relies heavily on State contracts to ensure low-risk food firms ' compliance
with the FD&C Act. In 1989, contract inspections comprised 75 percent of the bakery
inspections conducted , 74 percent of the bottler inspections conducted , and 70 percent
of the warehouse inspections conducted for FDA.

Despite FDA' s dependence on State contracts , the number of low- risk establishments
inspected by States under FDA contract , has decreased by 33 percent since 1985 , from
  859 firms to 4 577 firms. The following chart reflects this decline in the number of
low-risk firms inspected under FDA contract.


Several reasons explain
this decline. Reduced                            Decline in the Number of Low- risk
funding for contracting                            Firms Inspected Under Contract.
                                                                                                           1985-1989
restricted the number of
inspections the States                  8000 6,
could perform. Also , in                                859
                                        7000

some cases the FDA                      8000                                           5;62''''''''''''.''''''''''''''''.'''''''''.'''''''.'''''''''''
district offces chose to                11000
                                                                                                                                                                  4577
                                                                                                                  3;790.".'.."""..'. ;2' S7"'.""
assume more of this                     4000
workload , and in others                3000
States opted not to do                  2000
                                                   ''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''.'''.''''.....n.............

as many contract                        1000
inspections as before.

                                                18815                           1988                                  1887                               19aa              19a9

The number of   fis                                                                                                    'I.'
                                                                                                                                                          . Bott.,.,
                                                                                                                                                          .lId FrHd
                                                                                                                                                                       B.,.,I8.
                                                                                                                                                                       WIt8lI...
inspected under contract
began to rise in 1988
and 1989 as FDA
responded to GAO recommendations to do so.

State
FDA.
        in age             gie a   hi prri                       to low-                  rik foo safety                                           inns th
Unle FDA distrct offces, most State diectors do not consider low- risk food safety
inspections to be of low priority. Twelve State diectors consider low- risk food safety
inspections to be a high priority for their agency, whie only 10 States feel it is of low
import. The other State     diectors either characterie these inspections                                                                                   as of medium
priority, or make distinctions   in priority for             dierent tyes of fis.
                                ...

.i

     The States ' responses to the priority of low- risk food safety inspections often are
     colored by their agency s varied inspection activities. Frequently, States would describe
     one tye of low- risk firm as being of high priority, while downgrading the importance of
     other tyes. Connecticut , for example , considers bakeries to be a high inspection
     priority, bottlers a medium priority, and warehouses a low priority. In contrast , Hawaii
     considers warehouses and bottlers high priorities, with bakeries a medium priority.
     Choosing which tye of firm is more likely to be in violation or considered a potential
     health hazard , varies by State and often reflects current problems a State is
     encountering with a particular firm or product.

     Like FDA district offces , State inspection agencies often have responsibilty for many
     tyes of inspections , and must respond to emergencies. Postponing or cancellng
     inspections to react to these exigencies is commonplace. Characteristically, one State
     agency director said that " (the inspections of) foods are the fist to get sacrificed.


     availble du to th    di
     No relible estite of th total nuer of low-rik foo

     The number of different   fis
                                    of State reponig
                                                              fi    beig inpecte by    State is


                                   receiving low- risk food safety inspections under State law
     and not under FDA contract , is unkown. Whe exact figures are not available , we do
     know that States conducted at least 37 00 inspections of low-risk food    fis in 1989.


     The level of inspection coverage for a particular
     requirements and priorities. Some    fis
                                                         fi depends on the State
                                               receive more than one annual inspection
     because of States ' mandated multiple inspections, or due to reinspection to ensure that
     insanitary conditions found previously are corrected.

     Although most State diectors feel the number of low-risk food safety inspections has
     remained constant in recent years , this impression is not unversal. Fourteen said that
     over the last 3 years their agencies were doing fewer low-risk food safety inspections; 11
     said they were performg more inspections durig thi period. Trendig data
     describing the number of low-risk food safety inspections conducted by the States was
     requested, but generally was not avaiable. 


     FIING 2: Not al foo         fi  are know to FDA or the States. Respondents
     believe there are poible public heath riks asted with undentied
     they are not inpeed
                                                                                 fi
                                                                              since


     There is no national registry of food fis ,   either mandated or voluntary. The current
     techniques that identif   fis who process and store food products do not guarantee
                                                    fi
     that all will be identified. IT a low- risk food    is not identifed , it wi continue to
     manufacture , process , store and ship food that is not inspected. Thus   fis    operating
     in insanitary conditions wi continue to do so unchecked , placing the public s health at
     risk.
Th     FDA do      hae an inven of foo                 /i     but   ad   it is not complete     or
                                                                                                     up to date.
The FDA tracks food firms through the Offcial Establishment Inventory (OEI). The
GEl is a computerized data base containing information on establishments whose
activities fall within FDA' s jurisdiction. As of August 1990 , there were 28 700 bakeries
bottlers and food warehouses on the OEI. The OEI is updated by FDA district
offices. Although the FDA district offces feel that most firms are identified in the
GEl , 17 of the 21 FDA district offces believe that the identification of food firms could
be improved. The FDA district offces currently use a variety of methods to identify
these firms.

The FDA relies on its inspectors to identify food firms to update the OEI. Since there
is no systematic procedure to identify new food fis , inspectors do so by reviewing
newspapers , magazines , phone books , industry publications , trade periodicals,
surveilance reports , and consumer complaints. Inspectors may also walk through stores
looking for new products.

To a degree , all FDA district offces count on notification and referrals from the States
to identify food firms and update the OEI. A memorandum of understanding between
the State of New York and the Brooklyn and Bufalo district offces formalizes the
exchange of inventories between these agencies. In most instances however , inormal
networks provide this exchange of information. Twenty States routinely share their
inventory lists with FDA Most of the States commented that they would furnish FDA
with a copy of their inventory lists if FDA requested it. Twenty- nie States said that
FDA routinely shares its OEI with them.

The lack of timeliness                       OEI presents problems for inspecting
                                in adding firms to the
agencies. Firms could be operating for some time without FDA (or the State) being
aware of it. Durig this period , these firms would not be subject to food safety
inspections , nor be requied to correct any violations. Insanitary conditions could
rife , or adulterated raw materials could be used durig processing, or fiished products
could be stored improperly.

Shifting priorities and decreasing resources withi FDA has affected the contents of the
OEI. As      of a result of these factors        , an auxary OEI fie was established in fiscal year
1981. Firs are removed from the active OEI and transferred to the auxary fie if:
(1) they are out of business;   (2) their products or activties no longer fall under FDA'
jurisdiction; (3) their annual sales are less than S500, OO and they sell 75 percent or
more to retail customers        premises; or, (4) the FDA determes that the
                                  on the
cannot be covered within curently avaiable  resources. Establishig the auxar OEI
freed FDA staff to concentrate on larger                fis.

     3 Th acru coun of   fi   coul be   sm   sie an   eslihm cou be cowu in more     th one cazry.
However , updates to the auxliary OEI are infrequent. Firms in this inactive inventory
could easily change the nature of their business , or grow larger , without FDA'
knowledge. Whether they would ever be transferred to the active OEI , and subject to
FDA inspection , is problematic. Like firms who are never identified by inspecting
agencies , these auxliary OEI firms may be operating with food safety violations , and if
  , represent potential public health risks.

Most States mainin invenori of      foo   fi    but   ad not all foo fi        are

Forty- two States license , register , or issue operating permits to food firms. Most States
rely heavily on self- identification by food firms to comply with their requirements.
Some States require an annual license , while others merely demand a one- time
registration. Sometimes it is the local government , rather than the State ,   that licenses
food firms.

Like FDA inspectors , State inspectors take an active role in identifyng food     fis.
Using techniques similar to FDA inspectors , State inspectors act as " eyes and ears " to
identify new firms. Often , these inspectors have an assigned geographic terrtory and
through the years come to know most of the     fis  operating in their jurisdiction.

However, even with mandated licensure or registration and the best efforts of inspectors
to identify food fis ,   most States believe they are not identifyng all the food    fis
operating in their State. In  New York City, a respondent estimates that one-fourth of
the operating food  fis    are unkown to the State , despite mandatory licensing. States
also report problems tracking seasonal operations.

The are pole
inpectin agen.
                 pu6c      he riks asocte wi fi not beig              id
Food firms operating without the knowledge of inspection agencies can produce,
manufacture , pack, and store food that is adulterated and/or mislabelled. Unless
problems arise , like an outbreak of food poisonig, that identify these firms, they may
never be inspected. Routinely conducting low-risk      food safety inspections not only
serves to act as a deterrent against insanitary food   products, but also educates firms and
their employees about safe food handlng.

FIING 3: Foo saety inpeors             do not have al the enforcement tools they need
to do an effece job.

The food industry is becomig increasingly complex. New products , equipment, and
packagig are constantly being developed, and each change poses new potential risks to
consumers. Without comprehensive reguatory and enforcement powers , inspectors are
at a disadvantage in protecting the public s health and enforcing the food safety laws.
                                                                                   , "




     FDA inctors    cant imtely see, or emaro, foo prts foun tht appear
contmite All State have imte
Th

                                          emaro autri.

The FDA lacks the power to immediately embargo suspected adulterated foodstuffs
found while conducting an inspection. The FDA process to seize adulterated foodstuffs
entails a Federal court action, whether the product is considered   high or low- risk.
While this legal process is underway, potentially dangerous foodstuffs can be shipped
and subsequently, sold to the public. The FDA seizure process can take several weeks.
One FDA district manager related that when it does effectuate a seizure order it'
rare the entire lot is there when we return.

In some cases, the FDA turns to the States to effect an embargo to prevent potentially
hazardous foods from being marketed. Because of the potential health risks associated
with contaminated food , the States treat FDA embargo requests as high priority.
However , the possibilty exists that the food in question will be transported before the
State can act.

Seventeen FDA district directors feel that not being able to immediately embargo
violative foodstuffs hinders them, and could present a public health risk. An FDA
district director said he finds it frstrating not having this authority, since he sees
immediate embargo as an essential element of consumer protection.

Twenty of 21 FDA district directors believe FDA should have immediate embargo
power. Although FDA gives States considerable credit for responding to their requests
States cannot always immediately embargo on FDA' s behalf. For example , the State
may not have an inspector available either due to a State holiday or the logistics of
travel to the inspection site.

All States have the power to imediately embargo suspected adulterated food. In
some States, the embargo continues indefitely, whie in others the embargo must be
lifted if no legal action has been initiated in a specifed time period. In the latter
instance , agreeing to assist FDA with an embargo could present a problem, if Federal
court action on the cae is not accomplished tiely. One State embargoed a product
called " Oil of Priose " at FDA' s request. The FDA seize took several months to
accomplish. Durg ths time , the State was continually pressured by the firm to release
the embargoed product.

An FDA embargo request can pose other diculties for States. Some States requie
their own inspection to conf FDA' s fidings prior to embargoing. If the problem
not present when the State inspection takes place, the State cannot embargo. One
State could not embargo at FDA' s request when their inspectors could not fid the
product infestation that the FDA inspector had. Ths suggests that either the inested
product was shipped or destroyed before the State could inspect,     or that the inspection
conducted by the State was different than that conducted by FDA.
Joint FDA- State inspections are sometimes conducted when problems are known to
exist , or are anticipated. But the geographic spread of low- risk food firms , and the
relatively few numbers of inspectors mitigate against joint inspections , or even same- day
State inspections in many cases.

States cannot always comply with FDA embargo requests , although this is rare.
Violations found by an FDA inspector must also be violations under State law , and
under the jurisdiction of the inspecting agency before the State can embargo the
product. In some instances , violations of the FD&C Act are not violations of State law
and no embargo can be enacted.

Th FDA inctors lack          th inctin authori used by mo Sta.
The FDA inspectors do not have the authority        to access low- risk   food firms ' shipping,
biling, quality control ,   formulation and complaint records. Alost all FDA district
offces consider the absence of these record review     authorities a hiderance in their
inspection of these firms.  While FDA can obtain records via a Federal court warrant
this is often a lengthy and involved process. Four FDA district offces commented that
they have asked States to obtain records on their behalf.

Shipping and bilng    records    readily prove the interstate nature of a firm s business
required for FDA jurisdiction. Presently, FDA spends considerable inspection resources
provig that a   fi  ships or receives goods from other States. These shipping and
billig records are also vital in expediting the recall of adulterated products from the
marketplace.

Quality control and complaint records are important for pinpointing problem areas that
deserve special inspection attention. Access to formulation records would help ensure
that product labelling is correct.

In contrast ,most States have access to al records in question. Many State inspection
agencies have the authority to review any record needed to conduct their inspection.
N at all States give express statutory authority for indidual tyes of records, but
inspectors may request the records they feel are necessary.

Fort-one States have the authority to access bilg        and   quality control records.
Fort-three States have access to shipping records.       Th-six States can inspect
formulation records. At       least 30 States can review consumer complaint records , while
another 8 States are unsure if this is specifcally authoried in their State statutes.
Th   FDA /Qc/C    ex aUl to ta phtoph dug inctins.
Although FDA has the right to take photographs under normal inspection procedures
that right has been questioned because the statute is not explicit on this point. All
FDA district offces think that photographs are invaluable in documenting violations. A
graphic depiction of a violation is especially valuable in the event of prosecution , or can
obviate the need to litigate. Twenty of the FDA district offices state that they routinely
take photographs of suspected violations.

Thirt-nine States report photographing conditions in a firm while conducting
inspections.

FIING 4: Depite effort by Federa and State agencies and industr groups to
promote unormty, no national requiements ext for the inpeon of low-rik foo
fi.    Consuently, the
their geogrphic loction.
                             public recives dierent   levels of   foo saety, dependig on

The FDA and State low- risk food safety inspections often differ , both in the focus as
well as the breadth of the inspection. While many States have laws patterned after the
FD&C Act , there are considerable variations. Some States do not have the authority to
inspect all tyes of low- risk food firms.

Not all low-rik   foo safety   inns ar
The FDA district directors     feel that the inspections States   perform under contract are
generally well- done. However , two- thids    of the FDA ditrict diectors believe    that the
inspections States perform, not under FDA contract , are not equivalent to those
performed by FDA

No national requiements for conducting low- risk food safety inspections exist because
no means of obtaing consistency from State to State has been fully successfu.
Because of the dierent standards and requiements of FDA and State laws, low- risk
food fis  are often held to diferent inspection requiements. An inspection of a
       fi,
low- risk    uncoverig no violations , could take either 30 miutes or 3 days
depending on who performs the inspection. Also         fis
                                                        that operate in dierent States
may have to meet diering State inspection requiements for the same product. Ths
can cause confsion for these      fis in deciding what should be stressed to guarantee
minimum level of food safety.

Most State directors believe that the quality of their low-risk food safety inspections is
equal to those done by FDA inspectors. However , many States concede that the
degree of inspection documentation demanded by FDA exceeds that usually collected
by their inspectors. Ths dierence , as well as FDA' s emphasis in laboratory sampling
of suspected foodstuffs ,   ensues from the FDA posture that each violation may result in
legal action.

Where there are State mandated inspections of firms , there are considerable demands
on State inspectors to inspect these firms timely. However , perforce , only the obvious
violations may be uncovered. One State director said that they look for " the       3 B' s   ­
birds , bats , and bugs. " One State inspector said that he performs " flashlight
inspections " implying that he scans the flashlight beam around the facilty to      find
violations.

Th   FDA hi no mtndte inctin             freq     for low-rik foo   fi.
Based on workload demands and current priorities , each FDA district offce decides
which low- risk firms in their district will be inspected and how often.

State   inctin freq         for low-rk   fi var wily.
In contrast to FDA, 30 States are mandated by law or policy, to periodically inspect all
low- risk firms , or certain tyes of low- risk firms. Of these 30 States , 14 report that they
try to inspect establishments annually. Others have statutes mandating inspections as
often as six times annually.


However , adherence to these inspection frequency requiements is problematic. The
State inspection agencies frequently have responsibilty for a wide range of inspection
activities. Like FDA, States must deal with resource shortages , other organizational
priorities , and the need to respond to emergencies.

When scheduling low- risk food safety inspections , States also consider whether local
entities , such as city or county health departments, do their own inspections of low- risk
food establishments. States must coordiate with local inspecting agencies to avoid
duplication of effort   , and to spread inspection coverage to more   fis.
Unlike FDA, not all States perform low-risk food safety inspections of bakeries, bottlers
and warehouses. For example, Mississippi has no authority to inspect food warehouses
under State law. In Idaho, local authorities have complete responsibilty for food safety
inspections; the State neither conducts food safety inspections nor exercises any control
over these agencies. Montana acts mostly in an advsory role to the local county health
departments , usually gettng involved if an enforcement action is necessary.

The is   li   da sha        on   comp
Information sharing by States on completed low-risk food safety inspections is meager.
The information shared is usually problem-based , not routine. Less than half of the
States share any inspection inormation with FDA Sixeen States share their inspection
findings only if a problem or violation is involved; and three States supply FDA with
their inspection results only if an interstate problem occurs. Only six States routinely
share all their inspection results with FDA.
The FDA does not always share inspection data with all of the States either. Only
14 States report that FDA routinely provides them all FDA inspection findings.
Seventeen State diectors said that FDA will send them information on any firms found
to be violative. Ten more States report that they occasionally receive FDA inspection
results. The remaining States report receiving no FDA inspection results.

The are some efort to prmote unorm in foo safety inctins.
The FDA, the States , and the food processing industry have taken some steps to foster
consistent requirements for food processors and consistent food safety inspection
criteria. These steps include training both for industry and inspection agencies , the
contracting of FDA inspections, and the development of common standards that help
ensure that food manufacturing, processing, packing and storing is done under strict
sanitary conditions.


            The FDA promotes uniformity in low-rik food safety inspections through regulation,
            trainin& and contracting.

The FDA has issued seven Good Manufacturing Practice Reguations (GMPs) for food
processing since 1969.  The GMPs describe the mimal conditions and controls that
food firms must use to produce food products that meet the standards of the FD&C
Act. The purpose    of these GMPs is to prevent violative products from being produced
and marketed. The FDA uses these GMPs to evaluate sanitary conditions and
practices in the food industry.

The FDA State Training Branch offers training to State and local reguatory agencies
on a wide range of topics. Short-term courses are offered tution free , and are
presented on location at the requesting agency. The courses are designed to meet the
specific training needs of the sponsoring agency. The Trainig Branch solicits
recommendations from States concerning their trainng needs and States bid yearly for
the courses they want. The FDA trains and certifes many State inspectors to conduct
different tyes of                        inspections.


By providig traing and   techncal assistance to inspection agencies , FDA helps
promote a consistent approach to defig, identifyng, and correcting the potential
health hazrds found at food manufacturers , processors, packers and warehouses. Even
though indidua State requiements for these          dier, FDA can present an               fis
inspection traing course that applies the precepts of the FD&C Act tailored to their
laws. Enrollent is open to other agencies and industr applicants if training slots are
available.

     4Th GMPs        cove:   (1)     CW go m/factug practie in m/factur, pres& pa& or holdg hu
procesed low-acid foods paclcged in             hmal seald                            acidfid foo
                                                                                                                          foo
                                                                                                  (4) cacao prots an conftri
                                                                                                                                (2)
                                                                                                                              (5) smd
                                                                     conl            (3)

                                                                                  presg an bottg of bottd  drg
an smke-flred fih;
produclS an smked fih
                                   (6)

                                              cubradd fih;
                                          frze raw
                                    Q1e not          in efct.
                                                                an          (7)                                   wat. Th GMP's for cacao
Many State agencies praised FDA' s                  , citing both the expert level of the
                                     training efforts
trainers and the content of the courses. But many lament that budgetary restraints
prevent their staff from attending, or that they cannot afford to attend more than once
every 1 or 2 years.

Another form of FDA training that promotes not only uniformity of approach , but also
better information sharing, is the joint inspection. In these instances , an FDA and
State inspector form a team to conduct an inspection. In recent years , due to staff
shortages , there have been relatively few joint inspections conducted.

The FDA contracts with States to conduct low- risk food safety inspections require a
common approach and reporting of the fidigs. The FDA demands that States
performing inspections under contract use FDA methods , requiements , and forms.
Aside from the uniformty demanded by FDA in conducting inspections under contract
States set their own guidelines for inspecting low- risk food safetyfis.
The inspections done under contract usually requie more inspection time , product
sampling, and documentation than those normally performed by States.    A spin-off
effect of contracting is that States sometimes adopt FDA techniques or use FDA forms
to perform their own inspections.

       Hazard Analysi   Critical Control Point Programs focw on quality control standards.

The FDA, food processing industry, and professional organiations embrace the concept
of Hazard Analysis Critical Control Point Programs (HACCP). The HACCP is a
quality control approach that identifes the processing steps where food contamination is
most likely to occur. At these points , the product is tested for microbiological , chemical
and physical hazards.

Although the HACCP concept is one that can be applied unversally throughout the
food industry, the critical control points wi var for each tye of
warehouses, for example, a critical control point might occur durig
                                                                     fi. In food
                                                                     their effort to
eliate    rodents. However, a bottler of sprig water may not tyically have rodent
infestation, but would face problems to guarantee the purity of their water.
Establishig critical control points where the water purity is monitored would reflect the
risk point where inpection needs to take place. Ths HACCP specifcity for each tye
of food fi   helps assure the quality of the product.

The food processing industry has taken the lead in promoting HACCPs. In conjunction
with FDA in many cases , they develop HACCPs for specifc tyes of food processors
and offer traing on their application. Compliance with HACCPs is voluntary.
                      RECOMMENDA TIONS

The FDA is responsible for the safety of most of the nation s food supply. To
accomplish this formidable task , and stil have the resources to tackle their other duties
we believe that the inspection of low- risk food firms should be restructured.

This restructuring is necessary because of the vital ongoing need to inspect low- risk
food firms coupled with FDA' s need to ,devote more resources to their higher priorities.

At present , the frequency and the quality of these inspections varies greatly. Little
information is shared on completed inspections, and consequently some firms are
inspected by both FDA and States , while other   fis   are not inspected at all. Any
duplication of inspection effort takes away scarce resources from FDA' s other activities.

The FDA, working with the States, should develop and seek legislative authority for a
system to inspect low- risk food firms based on the followig principles:

              there is a need for a complete and uniform system for inspecting low- risk
              food fis;
              the FDA' s role should be in oversight , developing standards , and providig
              techncal assistance to the States; and

              the States should have the responsibilty for inspecting low- risk   food firms.


At a minimum, the system should include the elements described in the
recommendations below.

RECOMMATION 1: The FDA should desgn a unorm sytem that ensures both
a sytematic identication of al   foo   fi and collecon of inpeon           results.

The FDA should ensure that all food fis,     high-risk and low- risk, are registered. Ths
registry wi help ensure that all food  fis  are identifed , and therefore subject to
inspection. To guarantee that all food  fis   are subject to inspection , registration by
firms should be mandatory.

Options include FDA developing and maintaing a single national registry, or havig
each State keep its own registry. In either case , data should be shared between FDA
and States. Options for enforcing registration include requig either a Federal food
permt , a State license for food fis, or another form of user fees as discussed in
Recommendation 5.
,.




     RECOMMATION 3: Certed States should conduct inpectons of low-rik foo
     fi.
     States certified by FDA should conduct all low- risk food safety inspections in their
     State. The FDA would monitor States ' compliance with the inspection requirements
     perform quality control reviews , and provide ongoing training to the States. The FDA
     would recertify States periodically.

     If a State does not meet the inspection requirements , FDA should arrange for the
     inspection of low- risk
                          food safety inspections. The FDA could perform these
     inspections ,   or contract with a certified State ,   or other entity they deem qualified.

     We do not anticipate that all States will be able to meet all of the proposed FDA
     requirements immediately. Some States may choose not to meet the requirements.                In
     these cases , the food    fis
                                in these States should be held to the same inspection
     requirements as food firms in certified States.

     RECOMMATION 4:                  The   FDA should sek legilation to provde inpectors with
     the inpecton tools necess.
     The FDA should obtain authority    for inspectors to imediately embargo suspected
     adulterated products, review all necessary records , and clarify the right to photograph
     suspected violative practices. These inspection authorities should apply equally to all
     FDA-regulated products.

     Currently, the FDA' s lack of immediate embargo authority can allow adulterated foods
     to get into the marketplace. Many low-risk        fis
                                                     receive and ship foodstuffs daily.
     Even an expedited Federal seizre process cannot prevent the shipment of all foods
     suspected of being adulterated.

     The FDA should not have to rely on State offcials , or the vagaries of State statutes to
     prevent adulterated food from being sold to the public. Likewise , using both FDA and
     State inspectors to inspect the same materials in order to justif a State embargo for
     FDA, is a redundant use of resources.

     An additional issue to consider is how Federal authority could be delegated or
     otherwse used by certed States when conducting low- risk food safety inspections.

     Al food   fis should be presumed to deal in interstate commerce, as is the case with
     medical device manufacturers.       Th
                                          presumption could be rebutted by the food
     but the burden of proof would fall to them. Elinatig the requiement that FDA
                                                                                               fi,
     prove their jursdiction allows them to make better use of scace resources.
The registry should also receive , and share information on inspections of food firms
whether conducted by FDA, States , or local entities. The registry should furnsh
information to these agencies on inspections conducted by others.     Information on firms
operating in more than one State can be provided to all States involved.

Inspection results , positive or negative , are vital to agencies tryng to plan their
inspections. Problem areas found during another agency s earlier inspections can be
stressed when a new inspection is conducted. Additionally, the sharig of this data will
eliminate some of the duplicative inspections of  fis      by different agencies , since an
agency will know when the firm was last inspected.

RECOMMATION 2:               The FDA should develop requiements for low-rik        foo
saety inpectons, and cert      which States meet thes requiements.

These requirements should be based on FDA' s long experience in inspecting low- risk
food firms , and their extensive knowledge of risk analysis factors associated with the
different tyes of low- risk food fis. The FDA should also solicit input from States
the food industry, and professional groups in developing these requiements.

The requirements might vary by food, the size of the facilty, and all of the
considerations FDA currently uses to decide when to inspect a low- risk food firm. The
requirements should include miimum inspection frequency requirements.

Also to be considered is a fi' s adoption of HACCP or their use of GMPs in food
processing or storage. Firms that follow these priciples ,
                                                         and provide access to
inspectors that allow monitoring of these requiements, should not requie inspection       as
frequently as other   fis.
The FDA should certif which States meet al requiements for conducting low- risk food
safety inspections. The FDA curently provides specialed traig for States in many
inspection areas. The FDA should continue to provide traing for States, with special
emphasis for those States working toward FDA certcation, as discussed in
Recommendation 5. The new focus on training would emphasize preparing States to
meet the proposed inspection requirements.
                          , "




RECOMMATION 5: The FDA should collec an inpeon usr fee from al
foo fi. Th usr fee wi paral fud foo saety inpecton actties of both
FDA and the States that meet FDA' s    certcation requiements.
A July 1990 OIG report Implementing User Fees in the Food and Drug
Administration " indicates that applying the collected user fees to inspection activities
would be consistent with the way some Federal agencies fund their inspection activities.
The total user fees collected should not exceed the FDA and States ' costs for these
activities.

The additional funds made available from the user fees would encourage many States
to strive to meet these inspection requirements. The public, as well as many food
firms , would also want their States to meet food safety inspection requirements and
become FDA certified.

Food firms benefit from an inspection program that provides uniform requirements,
which also helps to assure the public of the quality of the product. So , firms that adopt
HACCP or follow GMPs might qualify for a discount in the user fee.

Collection of these fees could be accomplished in several ways. The FDA could        devote
additional resources to compile a registry ofal food fis ,     with concomitant staff to
collect fees and enforce non-collection. Or , States could collect the user fee through
the licensure process.



Another option would employ the Internal Revenue Servce (IRS) to collect the user
fees. The IRS could add a reporting lie on tax returs for businesses involved in the
food industry to compute their user fee. The IRS could receive a flat percentage of the
collections to compensate them for their expenses.

The FDA should end the curent contractig      of low- risk   food safety inspections with
State inspection agencies. Ths would represent annual savigs of more than
$2. 5 millon. States would be supplemented for the loss of contracted inspections with
a share of the user fees , if they adhere to the inspection requirements designed by FDA
and become certed.

The FDA would not share any of the inspection user fees collected with States not
certifed. These fuds would be used for FDA resources necessary to conduct the low-
risk food safety inspections, or arrange for their performance in those States.
Although we have not estimated the costs of restucturing the food safety inspection
program as described , initial costs are likely to be high. User fees should be used to
fund all food inspection activities. These user fees will fund FDA high- risk and low- risk
food safety inspections , with certified States receiving a portion to fund their low- risk
food safety inspections. The FDA will retain the balance of the user fees to fund the
registry of firms , the development of standards , the certification and re-certification
processes , and training. Other uses of the user fees could include additional inspection
staff, expansion of laboratory operations , or contracting for the maintaining the registry.

As an example ,  a user fee of one-tenth of one percent on the gross sale of all food and
kindred products would generate $513 millon annually on sales of $513 bilion. In
contrast , FDA funding for all food safety activities in 1989 was $132 milion. Collection
of the proposed user fees would allow curent operating funds to be redirected to other
non- food inspections.

The share to States who meet the inspection requirements should equal half of all user
fees collected in their State. Half of these collections , up to $256 milion in our
example , would be earmarked for States meeting the proposed FDA requirements.
This potential funding dwarfs the $2. 5 millon currently expended for State contracts by
FDA. In fact , in 1986 , 48 States reported food inspection expenditures totallg
approximately $121 millon. With the user fees , certifed States could conceivably
expand their low- risk food safety inspection coverage, whie reducing the State outlays
for food inspections.


Again , the user fees collected should not exceed the FDA and States ' costs for these
activities.

DEPARTMAL COMM
We received comments from the Public Health Servce (PHS), FDA' s parent agency,
the Assistant Secretary for Planning and Evaluation (ASPE), and the Assistant Secretary
for Management and Budget (ASMB). Al concurred in priciple with the
recommendations. Both ASMB and ASPE questioned the need to collect $513 annually
in user fees. The PHS proposed contacting States to determine their receptivity to the
recommendations and fuher refiement of the user fee concept, as well as making
several technca revisions to the report.

On the basis of the reviewers ' suggestions , we made several techncal corrections to the
report. We have clarified that collection of $513 mion in user fees represents one
                     revenues that could be collected though the
ilustration of possible                                                fees   , rather than an
estimate of how much revenue wi need to be generated.
We recontacted the food safety inspection agency in 10 States to discuss the
recommendations. Eight of the ten States supported the user fee concept to fud
inspection activities and the proposed linkages to FDA certification , as outlned in the
report. The comments of the States are presented in more detail in Appendi
Although we appreciate the need to further refie   the user  fee concept , this should
properly be addressed in the development of an implementation plan by PHS. As PHS
indicated in its response , such an implementation plan will need to be consistent with
FDA' s comprehensive user fee strategy.
      APPENDIX A

AGENCY COMMNT ON TH   DRA REORT
       "'

                 . DEPARTMENT OF HEALTH ANO HUMAN SERVICES


 !ssist          uc Secretary for aeal

 Office of Inspee or General Dr                    ft 
     eport " FDA ?ood Sate

 lnspdc                 " O   I-u5-90-01070
 Inspector General, OS


 At cached are   be PUD ic aealch Service (paS) comaeAt. OD the
 s ubj e C       draf
                 report.          e couear with each of   ecomaeud t ions.
 ijovever . we noe. that 1a          aentatio of these . reco8mendationA
 woula raqair               1fieanc chan.ei in 1. 1.1.tiY. authoritiea
       at./F d.ral r     1.t1u 5h1p&. & d luud1Di of FD4 op.ratiQ S.
 of che. e cnauges . reiardless of their aerie. can ot oe
 impl..eDced by . PHS a              oa..
                                            Ja   O. Mason
                                    J.ae8 O. Xason. K. D..
                                      IsJ

                                                                   Dr.
.\c ac:hllenc
c:c:
ES/PHS                                                    #3353
OH. Ra. l7 -25. P.rkla
        . Ra.    -13. Parkl..n

DPH,       a. 17&-13. Park avu
CAHB: DFK: ICillen. .               . 06/04/91
Pile: 01133'31                  C




                                                    A ­

                                     ..,
           COMMNTS OF TH PUBLIC HETH SERVICE (PHS) ON
           OF INSPECTOR       GBN                         TH OPPICE
                               (OIG) DRAFT REPORT " FDA FooD SAFETY
                        INSPECTION. " 01H- 05- 90- 0107Q


 OIG RECOMATION
             FDA should desiqn a unfo
             systemtic id8nt1fication of all food
             of inspection result..
                                                          fir
                                        system that ensures both a
                                                        and collection

PHS COMMNT
We concur in principle. A national system for the uniform

collection of state and r.ceral Lnspectional results would b

desirable, Howeer, unless Cenqress leqi81ates increased
                                                    paricipated in
supervised :food inspection sY8tem, 1t. value would be A federally
authori ties for rCA and unle.. States

questiona:ble. The reqistry system described in
be vary resourc8    ten. i ve in te  of costs and      to Doth
                                                                 ths
                                                      report would
                                                                  tim
develop and maintain.
OIG RECOM               ION

            FDA should develop requ8ment8 for low-risk food safety
            inspections, and certify which Sta tee meet these

            requiremen t8 .
            Certified States should conduct
            firm. .
                                                   inspetions of low-risk         food

PHS COMMNT
We concur in          part.
                       ion8
                            Standard rerements for low-risk food
54fety in8pec   perform
goo idea. Curently,
                        by FD and the States would be                         a
                          uner contract with PD, ddi
                    S
perform inllP8e 1on. of low-zo18i: food
requirement., and fO%m.
                                                   f:l    u81nq PDA methods,

However, peA does net have the author! ty              to reqre S1:atea      to
      tiQipat. 1ft a ce        lf1C&t1on proram. Stat.. are ..parate
anti ties, hi8torical17
way, on their own schedule,
                                retainng the
                           an uner their ow
                                                   ri;ht to 40    thq. their own
specifically preempted. A certfication p o;ramlaws  unless
                                               tor -low-risk
food safety inspeions wold            .t Federal Santation and
                                       re
Good XAufacturinq Practice. (GM) requlation. P:88mt state
requla. tions .
If in tact a cert fication proqram were develope and a State
chose not to participate or va.             unle
                                       to meet the reqirements,
PCA, it-salf, would have 'to d.o the inpection.                AddJ.:tiO!1lly, in
the pa8t, when preempted,           may St:        leqi.8la   ur.. have   elimnated




                                            A ­

 funding State program in favor of other State priorities such as

 schools, roads, and prisons.

OIG RECOMM                    ION

              FDA should seek leqislation to provide inspectors with the

              inspection        ools necessar.
PHS COMMNT

We concur. Once a violation is   uncovered, emargo or seizure may
be the most important requlatory                   tool.
                                        However, to uncover
violations, FDA needs access to reco s, subpoena          and                    powrs,
other inspection authorities.                roposad a
                                               In 1990, FDA

comprehen8iv. packaqe of enhanced enforcemnt leqislation that
sub8equently was approved by the Deparen.1:. The DEmS General
Counsel has for.ulated the proposals into la;islative languAge
that 18 being considered by OM for              o Congress as 8ubssioft

                                           s reqested l.qislation
                                                   for fiscal
              1992. If subtted
part of the Adnistration 


year                     and act8c favorably upon b7 Congress,
thi. leqislation would proY de the tools recomended in the OIG

report .
OIG RECOMMNDATIOH

              FDA should eolleet an in.paction user f.. trom all food

              firm . Thi. user fe. will          paially
                                                   fund fooc1 safety
              inspection activit1.. of both FDA and Stat.. that meet FDA'

              certif ica     tlon reqement..
PHS COM
We celiev. the fea8ibility ot implementing thi. recommendation
depends on a                 numr
                    of considerations. The most obvious factor
would be the receptivity of the S at8' to the proposed financial
and certification               l1.aq.. to
                              PDA. Ini tiel reactions f:c a
sampling of state officials reqard1n their view on the merits
of this proposal would be a very practical addition to the final
report .
A second, 
ut less obvious, factor
in the report i8 parity
                                              tht  4eserve8 closer attention
                                      betw the fee buen on damstic and
imported foo. As the propo8al 8unda, it                                   1. silent on how
8ales-ba88d fees 1fuld. be applied to imorted food. I would
st=enqten the r.c       dation to . Amj ft. hew th8 sale.- ba..d fee
approach could be ezend.8d to imrtee tood whle con:foz:g to
various inta:ntional trade an taiff con.train
A third factor thAt                 wold
                          increase the receptivity to this
  opolal i8 a mo:. develope rationle for          fQrm fee ra
on all lev.l. of the fo04                  indu8tr.
                                     A8 it 8tands, whol.e8alers
                                                                          the




                                                 A ­

will pay most of these fees, since the value of food at the

wholesale level is qreater 
 an at the manufacturer level, yet

FDA and .tate inspection efforts spend more tim& en maufacturers
and proce..or8. In addition, profit magins are typically much
thinner at the wholesala level, &0 the relative impact of a
constant ra e fee will be dieproportionat81y burensome on
wholesalers.
A two-level fee structure would certainly be possible, but the
rationale would need to be .ufficien ly crisp to prevent drift
toward a complicated multi-tiered fee Iyatem that would be too
cumersome to admnister. Conceptually, this recommendation
pre8ents a no el approach to maaqinq fedsral and .tate food
inspection resources. Its viability will depend considerably on
hew well the final report refines the idea and explores it.
feasibility.
Finally, any attempt to 
  pl8ment user fees for food Lnspections
needs to be considered in the contest of the comprehensive user
fa. strategy. The Office of the Secretary has asked PDA to
develop n a blueprint for haw ast. to dev81cp a ratic1\l mechanism
fer achieving Conqrese1onal, induat2:,          and public        aqe01,
consensus on the ..    li.hment of u..          The inormation on
food 1nspeetionl develope 1ft the final version of       OIG
                                                                  f....         ths
report will be considered by PDA in it. preparation of the
blueprint fer user                       f....
'IECHRICA               COJO6.
           Paae 1. oaraqraph                 t.ast
                                     sent8nce: Mayonnise and many
           other hiqh risk tOOQ8 do DQ present a botulism hazard.
           Rather there             other problem t:8" may cause, such
                                    ue

           as staphyloccal ent. Qtozin                   an histame.,
                                                      which ar8
           considered to be high ri.k.
           Paae 2. sent.nce 2:                     Should read, - The FD relies       on its
                                                                 gudance thuqh its
           Compliance             Pro
           h.adquarter. to provide national
           offices to set their ow local
                                                 Guidace Kaual         an
                                                                       OD it. 21 district
                                                               priorities.

                            Secau.e of ita larqe wcrkloac1 and                        limted
           resources, FDA must ..tablish prioriti.. for its
           inspeions, in   doinq thi., low-risk food .afety inspections
           may not necessarily have the sam importance .a . CD other
           inspetions.
                      ,1
                               iJ--:::a
           norml in8pection pJcedur8., tha't
                                                 ha:
                                                                  ha
                                                                  to  O:a ::c1er
                                                                     be
                                                       ezlic on ths poin questioned
                                                                       ri;ht:
           becaus8 the statute is not




                                                        A ­

       paae 13. last caraaraoh, sentence        No national

       reqirements e%ist , because no means of obtaLninq

       consistency from State to State has been fully    successful.
6 .	   paae 15. ;ootnote:     The seven GM' s cited are not all still
       in effect. The one on cacao produets and the one On smoked
       fish are not in effect. A new GM on smoked fish is
       presently under consideration and changes in the GM' s for
       bottled water are being considerea.
       Paae 20. caraaraDh 3t     The word " foodstuffs" should be
       replaced wii: thtl word . products I   To read, " Reoommnded
       inspec ion authorities should apply 8qually to all FDA­
       requla tad prOducts.
        aae 22, paragracU.    sentence     To ru such    1m expanded
       laboratory operation davoted to low-risk food.,   FDA would
       need add! tional FTs and money from Conqres8.




                                         A ­

:J Ii '

           DIPAaTMINT O' HEALTH. HUMA SUVICD

                                                                                             41O, . Q, C.   2D'
                                                  MA

     TO)            Richard P. xu.erov
                    In.pactor Gearal
      FROM:         Aa. istant Secretary tor
                    planinq and        !Valuation

      StJBJECT :    OIa Draft Report: -FD roo Safety In.paction,
                    011-05-90-01070

      I have reviewed the 01e;            Drtt
                                    Report, 8Pn         Safety  roo
      In.paction, 8 and I concu with the  t1rat  four             rec08andation.


      the report. The cU.    .ini.hin9 priority
                                                  ba. placed on
      in.paction of low ri.k too tira    coupled  vith their 118it84
      authority to acce.. fira record baa reslt8c     1f an 1feffici.nt
      .yat.. of foo .afety inpaction tht     reqire.conduct
                                                        FD to  .upplament
      it. effort. by contractin9 vith 36
autea to             the
      inapeiona.certification
                    The rec08andation. for   a  un1fora .y.t..  80ni tor.4
      by FD with                               conduct 1npac:1ona woulc!
                                 of .Ute. tor..ult
      ell8inate cuant 1feffic1ancie8
                         fir..          an          1f 80re frequent
      1f.pactiona of all
      wi th r8Card to the fifth     r808endation, theanually
                                                       coll
 ion of ua.r
                                                                     t...

                                 collec $513 a111ion
      to tu
                                                                                   1n user
      f.e., tbe propo.al to
                   the creation of a unifom 818t-  a. vell .. 1napction
                                               exce..1ve. In 1... total
                                     an ..y be
                                     activiti.. va. only $132 .illion.
      activit1e. i. unjuatifi84
      rnA fu1n    for all foo aafety
                               enanc..anU voulel ni.. the co.t of
                    Z'ua (t132 a1l110n) al80. fou-fold ($513
      It i. unclear vby p

      the C\ant          conc
      .illion). I caoi               I'08Pen dation five vithout
      exlantion an jU8 1fioation for the 112: fM exnditure..
                                                  vith




                                                         A ­

                            .'




      DEPARTMENT OF HEALTH. HUMAN SUVICts                                                                 0f of th S8lQy
                                                                                                          Wanl   ton, O. C.   20201
                                                                AP 1 6 1991
KDORAOX

nOM
                                        I itsE.  ch d
                    us.erow
                                                                       eneral
                                                                       ley
                                        As.         i.tan             Secretary              for Manaqement ana Buaget

StJJ_Cf                                 OIG Draft Report Entitled "FDA Food
                                        Inspection"

While we concu with  the Report as written, we would like to
                             user fee. ($S13 .illion per year)
                                                                                                       larer
point out that the amount                                  ot

which the report recommend. FDA collect is far          than the
level of resource. curently  devoted to        .afety. The $513                              foo
million fique          larger than FDA t . planed FY 1992 u.er fee
                            i.   160'

collection. from all                              larger than the

                                               reglated indu.trie.,                             304'

FY 1992 amount budgeted for the field operation. of the Center

for Food Satety and Applied Nutrition, and 67. ot FDA' s entire FY

1992 budget. Since the Report doe. not present information that

there are ujor .atety probl-     in the food industr, we think
that the idea of collecting .0 .uch more trom the tood industry
than i.               cuently
                  being spent on       .afety will be difficult to           too
justify. It  might be advantaqeou. to pre.ent the $S13 million
f ique a. an illustration ot th. amount of user te.. which could
be raised from user      ba.ed on .al... Alternatively, th. $513
                                        t...

million could repre.ent .everal y.ar. of f.. collection


reqi.tration of food
and that .tat.. .hould
                                               tir
With re.pect to the oth.r recomendation., we aqree tha
                           .hould be undatory (recommendation 1)
                                                bein to tae
                                      over re.ponsibility for
inspectinq low risk too tira   within  th.ir bord.r.
(recommendation 3). W. al.o agree that FDA should seek

leqi.lation to provide ita inv.stiqators with additional
authority (recomm.ndation 4) and note that such leqislation is
pre.ently uner r.vi.w at OMI. Whil. we certainly do not oppose
the idea ot PD developinq specific .tandards for low risk food
inspection. (recomm.ndation                               cost of2) we are concered that

developinq such .tandard. aiqht not be ju.titied by the
hi.torically low ri.k po.ed by th.se                                                       indu.trie..




                                                                              A ­

   -"
, ",




                        APPENDIX
        OFFCE OF INSPECfR   GEN REPONSE TO AGENCY COMM
l'




     OIG REPONSE TO PHS CO

     We welcome the support for the recommendations in our draft report and at the
     same time appreciate the concerns raised in the Public Health Servce s (PHS)
     response to the draft report, especially in emphasizing that they cannot act
     unilaterally on any of the recommendations. As the report points out, none of these
     recommendations can be implemented without congressional action. And
     considerable FDA- State cooperation and coordination is vital to the acceptance and
     success of the changes suggested.



     We recontacted a random sample of 10 States to determne their initial receptivity to
     the user fee concept, and to the other recommendations that would affect State
     inspection activities. The States were unanious in supporting the need for
     consistency in inspections. Eight of the 10 States   supported the user fee concept to
     fund inspection activities.

     Some State concerns about the recommendations included the effect on State
     funding and State user fees, the proposed division of the user fees, and the
     preemption of State and local statutes by Federal standards.

     Our view is that the user fee suggested could replace much of the State fudig for
     low- risk food safety inspections , and may reduce some of the curent State budgetary
     concerns as it regards food safety inspections. The user fees should allow
     fuding of low-risk   food safety inspections for certifed States.


     We expect that the intial costs   of   starg a national program that encompasses a
     national registry, collection and dissemiation of inspection results , a certifcation of
     State inspection agencies, the performance of all low-risk food safety inspections in
     non-certifed States, the expansion of traing and techncal assistance to States, and
     increased laboratory testig   wi be costly at fit.   However, as the program matures,
     a different sharg of the user fees might be in order.

     We feel that the proposed requiements should alow for State or local requiements
     to requie stricter controls on food where they feel the need exists. However, the
     standardid inspection requiements should be not reduced as a result of lesser
     State or loca requiements.
,.       ,-,



     .., 1





               The PHS also mentioned extending the user fee to imported foods. However , this
               inspection was limited in scope to low- risk domestic food products. We cannot
               speculate on ways to include imported food products under these rubrics.

                         , PHS suggested a two- level user fee schedule. The recommendation we
               In addition
               made was not intended to be restrictive. Instead , as with suggesting a reduction for
               firms adhering to HACPs , or suggesting that IRS might serve as the collecting
               agent for the user fee ,   we feel there are many possible ways to approach these
               concepts.

               Technical revisions to the body of the report    were made as suggested by PHS.

               OIG REPONSE TO ASPE              COMM
               We welcome the support for the recommendations. The ASPE did question the
               need for the amount of the proposed user fees in the draft report since it would
               generate nearly four times the current expenditures for FDA food safety inspections.
               The report was changed to indicate that we had no estimate of the eventual cost of
               the program suggested. The amount of the user fee in the report is shown as an
               example.

               Although we have not estimated the costs of restructuring the food safety inspection
               program as described, initial costs are likely to be high. User fees should be used to
               fud all food inspection activities. These user fees wi fud FDA high-risk and low-
               risk food safety inspections , with certifed States receivg a portion to fund their
               low- risk food safety inspections. The FDA will retain the balance of the user fees to
               fund the registry of fis,   the development of standards, the certifcation and re
               certification processes, and trainig. Ukewise,   State expenditures would liely
               increase to meet the demands of certcation.

               Additionally, we expect that the level of inspectons conducted by States would be
               raised , and the frequency of inspections increased in many instances.
